Audit Report 09-12, Management letter on Veteran's Data at the National Personnel
Records Center in St. Louis, MO.

On April 29, 2009 the Office ofInspector General sent the Acting Archivist a
Management Letter detailing a procedure at the National Personnel Records Center
which continuously exposed a vast amount of veteran's personally identifiable
information (PH) to inappropriate release. In response, management stopped the
offending practice. The contents of this Management Letter and the specific procedure
identified are being withheld under FOIA Exemption "high" b(2).
